                                                      e.Efl   OF   '%*
U.S. DEPARTMENT OF COMMERCE                          g jg            om
          Officeof Inspector General                 5%@*j
                                                        %TES   OV




                    US. CENSUS BUREAU


      Census Bureau's National Processing
         Center Needs to Improve Controls
         Over Government Bills of Lading
   Final Audit Rqort No. ESD-14911-3-0001/Sptember
                                                 2003




               Office of Audits Business and Trade Division
                                        ,&fl"   '
                                          w%         UNITED STATES DEPARTMENT OF COMMERCE

                                         Bej
                                    5,B%rEs     c8
                                                     The Inspector General
                                                     Washington, D.C. 20230




                                                      SEP 3 (1 2003


MEMORANDUM TO:                 Charles Louis Kincannon
                               Director of Census Bureau



FROM:


SUBJECT:                       Census                  Processing Center Needs to
                                                               Bills of Lading
                              Final Audit Report No. ESD-14911-3-0001

This is our final report on government bills of lading (GBLs) issued for airfreight services
by the Census' National Processing Center (Nl'C) during Census 2000. This audit began
in response to information forwarded to our office by the General Services
Administration (GSA) concerning possible overbilling by two airfreight carriers. GSA is
congressionallymandated to conduct post-payment audits of all government
transportation bills. GSA was reviewing the GBLs for both carriers and believed it was
finding substantial overcharges. However, both carriers protested the overcharges stating
that the Census Bureau had authorized the additional services even though such
authorizations were not specified on the GBLs. GSA stopped the post-payment audit for
both caniers and requested that our office look into the matter. Thus, we sought to
determine whether the carriers overbilled the government for services rendered and
whether Census could have procured less-costly airfreight services.

We found that NPC did not follow federal transportation management regulations for
acquiring airfreight services, which totaled more than $11 million over an 11-month
period. In addition, the center did not independently estimate the cost of shipments
authorized by each GBL or thoroughly audit the final charges on them, and therefore
cannot be certain that it paid only for'services provided. We also found that a shipping
department clerk, with no contracting authority, negotiated rates and signed agreements
with airfi-eightcarriers. Finally, we found instances where both carriers had over-charged
the Census Bureau for services provided. We briefed GSA on our audit findings, and
GSA agreed to resume the post-payment audit. GSA informed us that it has billed the
carriers for over $2 million since our office referred the matter to GSA. Our
recommendations appear on page 6. In responding to our draft report, the Bureau agreed
with the recommendations and described actions already taken, or planned to address the
recommendations. The Bureau's response in its entirety is attached as Appendix A.
    U S . Department of Commerce                                        Final Audit Report ESD-14911
    Office of Inspector General                                                        September 2003

Introduction

The 2000 decennial census was conducted in the United States, Puerto Rico, and U.S.
territories as of April 1,2000. In preparation for the decennial, the bureau opened
12 regional census centers and 520 local census offices. The regional centers managed
the local offices, recruited and trained personnel, and provided payroll and administrative
support. The local offices performed field activities such as developing address lists and
conducting door-to-door enumerations.

To complete the decennial accurately and on schedule, the field offices required
sufficient quantities of various printed forms, supplies, and other materials. The bureau's
National Processing Center in Jeffersonville, Indiana, was the primary distributor of those
items. The center warehoused approximately 1,500 different decennial forms along with
a variety of related supplies, which it packaged into 323 distinct types of kits that were
shipped to the field offices for use in conducting census operations.

In decennials prior to 2000, NPC primarily shipped these materials via ground fieight.
However, because of unanticipated delays during Census 2000, NPC relied on airfi-eight
companies to make the bulk of its deliveries to the local and regional offices. Each
shipment was accompanied by a government bill of lading, completed by the center's
shipping department and provided to the fjreight carrier. A government bill of lading is a
shipping document that contains the material, weight, cost, date, and destination of the
shipment.

Objectives, Scope, and Methodology

On October 3,2001, our office received a letter fiom the General Services
Administration Audit Division concerning potential overcharges on shipments
transported to Census 2000 local offices by two airfreight carriers. According to the
letter, the carriers claimed that the Census Bureau had authorized services in addition to
those contained on the government bills of lading, thus increasing the cost.
Consequently, GSA asked our office to review the practices used to procure air
transportation for shipments to the local census offices.

Our audit sought to determine whether the carriers overbilled the government for services
rendered and whether Census could have procured less-costly airf?eight services.

To meet our objective, we interviewed personnel from the airfreight carriers, GSA, NPC,
and Census's Finance Division in Suitland, Maryland. We reviewed government bills of
lading issued to the carriers as well as the pricing proposals the carriers submitted to
Census and other relevant documents. We assessed NPC's compliance with 41 CFR
Part 102-117 ("Transportation ~ana~ement")'       to determine whether the center had
1
  On July 2 1, 1999 GSA began updating, reorganizing, streamlining, and cl-g     federal management
regulations governing transportation management. At that time, regulations governing transportation
management were located at 4 1 CFR Part 101. Those regulations were moved to 4 1 CFR Part 102-117,
effective October 6,2000.
U.S. Department of Commerce                                                 Final Audit Report ESD-14911
Office of Inspector General                                                                September 2003

followed federal requirements for procuring delivery services. We also evaluated the
center's internal controls over GBL preparation and review to determine whether they
were adequate for detecting billing inaccuracies. We did not assess the reliability of
computer-generated data because it was not relevant to our audit objectives.

We conducted our audit from February to December 2002, in accordance with
Government Auditing Standards issued by the Comptroller General of the United States
and under authority of the Inspector General Act of 1978, as amended, and Department
Organization Order 10-13, dated May 22, 1980, as amended.

Findings

NPC Did Not Follow Federal Regulations For Acquiring Airfreight Services
According to 41 CFR Part 102-117, agencies that wish to acquire transportation services
may do so in one of four ways: (1) use the GSA tender of service, (2) use another
agency's contract or rate tender with a transportation service provider, (3) contract
directly with a transportation service provider in accordance with the Federal Acquisition
Regulation, or (4) negotiate a rate tender under a Federal transportation procurement
statute. However, the National Processing Center failed to follow the appropriate
procedures for using any of these approved methods. NPC did not follow federal
regulations for acquiring Census 2000 airfieight services because, according to NPC
personnel, the center did not anticipate using these services often enough to warrant a
GSA tender or negotiated contract.

Realizing that some airfreight service would be needed, the NPC shipping department
requested price proposals from eight carriers. Only two of them delivered to all the
bureau's locations-the 12 regional offices and the 520 local offices in the United States,
Puerto Rico, and U.S. territories. NPC therefore decided to use these two.

However, unanticipated delays in assembling census kits required NPC to rely more
heavily than it had anticipated on airfreight delived-and it ultimately spent more than
$11 million on air transport for the 11-month period from November 1999 to September
2000. NPC personnel indicated that by the time they realized the volume of airfieight
would be significant, it was too late in the decennial process to develop a scope of work,
solicit proposals, and negotiate a competitivelybid contract. In subsequent conversations
with Bureau officials, they agreed that a contract should have been competitively bid. By
not following federal regulations to competitively acquire services, the bureau has no
assurance that it received the best service at the lowest cost.




* OIG report DEN-1 1950-0-0001,Decennial Census Warehousing Operations Needed Attention (issued
July 2000), discusses the potential and actual adverse effects caused by the shortage of time to assemble
kits, one of which was an increase in decennial costs.
 US. Department of Commerce                                     Final Audit Report ESD-14911
 Office of Inspector General                                                  September 2003

NPC Needs to Independently Estimate and Thoroughly Review Fees Listed on the
GBL

The NPC shipping department did not have controls in place to ensure that the airfreight
carriers were billing at the rates contained in their proposals: the center did not
independently estimate the cost of shipments authorized on the GBLs against those rates,
and it failed to detect in its review of the bills that a much higher rate than proposed was
being used.

The GBL is a one-page document with eight carbon copies. NPC kept four of the carbon
copies and the transport carriers were provided with the original and the remaining four
carbon copies. Prior to transport, NPC completed the sections of the bill that described
the shipment (e.g., items, weight, destination, date of pickup and delivery); the cost
section was left blank. After the shipments were delivered, the carriers provided a
facsimile cost estimate to the center and also completed the cost section of the GBL for
billing purposes.

Although the carriers completed the cost section, GSA regulations also recommend that
the agency that issued the GBL, estimate, on its copies, the transportation charges.
However, NPC did not develop its own cost estimates, and instead used the estimates
provided by the carriers to complete its copies of the GBLs. The center then forwarded a
completed copy, with the carrier's cost estimate, to the bureau's Finance Division, where
it was compared with a copy submitted for payment by the carrier. As long as the
estimate on the center's copy was within 10 percent of the requested payment amount,
the GBL was paid. If the difference was 10 percent or greater, the Finance Division
reported the discrepancy to NPC for resolution before making payment.

Comparing the government's estimate to the bill submitted by the carrier prior to making
payment is an effective internal control. However, when the carrier is the sole source of
both the estimated and actual charges, the government has no objective, independent
verification of the reasonableness of those charges. NPC personnel should have
independently estimated the cost of all services listed in the GBL at the time of shipment.
Without such an estimate, it has no way of determining whether the charges on the
carrier's request for payment are appropriate.

We also found that NPC could not thoroughly review the GBL cost estimates provided by
the carrier, because all the charges in the estimate were bundled into one composite total.
Without a detailed breakdown, NPC had no way of knowing whether the proper shipping
rates were being applied and whether additional fees were supportable. NPC explained
that as long as the total estimated bill did not exceed $1.20 per pound, the amount was
not questioned. We asked shipping department personnel how they arrived at the $1.20
threshold, and we were told that the $1.20 was set based on their "experience." However,
based on the rates in the price proposals, which ranged fiom .45 cents to .90 cents, we
believe that the $1.20 threshold was set too high and that too few GBLs would be
questioned.
     U S . Department of Commerce                                    Final Audit Report ESD-14911
     Office of Inspector General                                                    September 2003

     Air Freight Carriers Overbilled for Services Provided
     NPC personnel told us that the price proposals were the only formal documentation
     between the carriers and the Census Bureau. NPC personnel stated that the carriers were
     expected to abide by the terms and rates in the proposals even though the proposals were
     not signed.

     We compared the itemized charges on a sample of GBLs against the fees listed in the
    pricing proposals, and found that both carriers did not always adhere to the proposed
    rates. We contacted both carriers about the price proposals and the rates billed for
.    services provided during Census 2000. One carrier explained that because they were
    located in close proximity to NPC, they were considered a local carrier and that they had
    negotiated a verbal agreement with NPC that they would adhere to the price proposal.
    The carrier stated that there was never a written signed agreement. In contrast to the
    carrier's claims that they billed according to the price proposal we did find much higher
    rates for some shipments in March 2000. According to the carrier, a one-day rate
    increase was verbally negotiated with NPC shipping personnel due to a last minute
    request for Saturday next- day service to some of the 520 offices. This one-day rate
    increase was significant,jumping from 64 cents per pound to $2.50 per pound. Although
    the canier contends that the increase was for one day only, we found several instances
    where the carrier continued to charge $2.50 a pound throughout the month of
    March 2000. When we initially reported the overbilling to NPC, the center claimed it
    had no documentation to support any increase in the shipping fees and that the carriers
    should have used the proposed rates.

    When we visited the second carrier, representatives produced three tender agreements
    between the carrier and Census, covering shipping rates and charges for the period
    April 1999 to May 2001, all signed by an NPC shipping clerk. Because we were
    originally told that there were no signed agreements between NPC and either carrier, we
    contacted NPC personnel and verified the signatures on the tender agreements. Shipping
    department personnel did not have the authority to accept special rate increases or
    negotiate and sign tender agreements. When we spoke to the contracting officer at NPC
    who was not involved in these procurements, she confirmed that only a contracting
    officer has the authority to sign the tender agreements and negotiate price increases.

     We analyzed the rates in the tender agreements and found that they were significantly
    higher than those in the second carrier's pricing proposal. For example, the per pound
    proposal for next-day delivery of shipments weighing more than 1,000 pounds was
     58 cents; in the tender agreement it was 80 cents-an increase of 38 percent-and
    jumped to 90 cents if delivery had to be made by noon.

    Using the new rates in the signed tender agreements, we compared the new rates with the
    rates in the GBLs and still found that the second carrier was overbilling. Specifically, the
    carrier would bill for next day service by noon, but actually would not deliver until after
    noon or would provide second-day service.
 US.Department of Commerce                                         Final Audit Report ESD-14911
 Office of Inspector General                                                     September 2003

Questioned Costs and Actions Taken to Recover Overbilling

We met with senior Census officials and explained that our review confumed what the
GSA Audit Division had suspected: both carriers had been overbilling the Census Bureau
for transportation services. Therefore, we requested that GSA resume and complete its
post-payment audit of the GBLs for both carriers. Based on their recently completed
review of more than 5,000 GBLs issued for both carriers, overbillings are estimated at
$2,045,304. GSA has already billed the two carriers for more than $2 millionin excess
charges.

Recommendations

The director, Bureau of the Census, should require the bureau to take these actions:

    1. Follow federal regulations for acquiring airfkeight services, to ensure that the
       bureau receives the best service at the lowest cost.

    2. Direct the bureau to prepare its own cost estimates for services covered by each
       government bill of lading that the center issues.

    3. Require future service providers to itemize all charges-both      in their estimates
       and their final bills.

    4. Ensure the National Processing Center audits future GBLs against a reasonable
       cost threshold that will reveal whether a carrier is overcharging for services.

    5. Ensure that only authorized officials negotiate and sign contractual agreements.

Bureau Response

In responding to our draft report, the Bureau agreed with the above recommendations and
described actions already taken, or planned to address the recommendations.
Specifically, the Bureau agreed that controls need to be improved, and independent cost
estimates for GBLs must be performed. As a result, the NPC is in the process of
developing written procedures for the preparation of GBLs that will incorporate all of the
provisions of the US. Government Freight Transportation Handbook and the regulations
governing the use of GBLs that are published in Title 41, Code of Federal Regulations,
Sections 102-118.

In addition, to assure that all future shipping service cost is fair, reasonable, and the best
value to the government, the Bureau stated that NPC will take or has taken the following
actions:

       meet with the Finance Division to discuss and determine the best approach for
       conducting GBL prepayment audits;
US. Department of Commerce                                     Final Audit Report ESD-14911
Office of Inspector General                                                  September 2003

        require service providers to itemize all charges on the GBL;

        require the NPC shipping office personnel to develop a government estimate for
        all services identified on the GBL;

        establish reasonable cost thresholds on all GBLs to reveal carrier overcharges;
        and

        acquired a bulk air fieight contract

Finally, the Bureau pointed out that late in 1999, and contrary to experiences in previous
censuses, NPC began to receive urgent requests to expedite the delivery of office supplies
and training materials to the RCCs and LCOs. The Bureau stated that NPC immediately,
and repeatedly, sought overnight air fi-eight solutions through the General Services
Administration, but without success. Because of both operational needs and time
constraints, NPC proceeded with direct acquisition of air fi-eight delivery services. The
Bureau's response in its entirety is attached as Appendix A.

OIG Comments

We commend the Bureau for already initiating actions to implement the report
recommendations. The described actions taken or planned should provide a sound basis
for an acceptable audit action plan.


In accordance with DAO 213-5, please provide us with an audit action plan for our
review and concurrence addressing all of the report recommendations within 60 days of
this memorandum. Should you need to discuss the contents of this report or the audit
action plan, please call me at (202) 482-4661, or Michael Sears, Assistant Inspector
general for Auditing on (202) 482-1934.

We appreciate the cooperation and courtesies your staff extended to us during the audit. .

Attachment

cc:    Marvin Raines, Associate Director for Field Operations
       Pat Boteler, Audit Liaison
                                                                            '   UNlTED STATES DEPARTMENT OF COMMERCE
                                                                                Economics and Statistics Administration
                                                                                U.S. Census Bureau
                                                                                Washington, DC 20233-0001
                                                                                OFFICE OF THE DIRECTOR




 SEP 3 0 2003


MEMORANDUM FOR                                         Michael Sears
                                                       Assistant Inspector General for Auditing
                                                       Office of the Inspector General

Through:                                               Kathleen B. Cooper
                                                       Under Secretary for ~{onomicAffairs           ,
From:                                                  .CharlesLouis Kincannon
                                                       Director

Subject:                                               Census Bureau's ~ a t i o n a k r & s i n ~ Center Needs to Improve
                                                       Controls over Government Bills of Lading
                                                       Draft Audit Report No. ESD-14911-3-XXXX


This is in response to your memorandum of August 27,2003, concerning the above-referenced
draft audit report. We appreciate the opportunity to comment on this report. The U.S. Census
Bureau agrees with and has initiated the implementation of the recommendations (as discussed
below) resulting fiom this audit. In this memorandum, we have included necessary background
information to provide the appropriate context for understanding the unique set of circumstances
in Census 2000 relating to the National Processing Center's (NPC) use of air fieight carrier
services in calendar year 2000.

Background Information and General Comments on the Draft R e-~ o r t

Late in 1999, and contrary to our experience in previous censuses, the NPC began to receive
urgent requests fi-om the Field Logistics Operations Center to expedite the delivery of office
supplies and training materials to Regional Census Centers (RCCs) and Local Census Offices
(LCOs). The NPC immediately-and repeatedly-sought overnight air freight solutions through
the General Services Administration (GSA), but without success. At this criticaljuncture in the
logistical ramp-up to Census 2000, both operational needs and time constraints necessitated the
direct acquisition of air freight delivery services, and the NPC proceeded to do so.

Although the draft audit report observes that NPC "generally used air fieight carriers" to move
supplies and other materials to the RCCs and LCOs, it is worth noting that only 8,803 of 63,080
total shipments were sent next-day air fieight. Even under intense pressure from its customers
(census offices, in this case) and severe schedule concerns, NPC dispatched the overwhelming
majority of shipments by traditional carriers: truck (10,264 shipments), Federal Express (30,992)
and United Parcel Service (13,021).


 USCENSUSBUREAU
 H e l p i n g You M a k e I n f o r m e d Decisions
Comments Specific to the Recommendations

The Census Bureau concurs that controls need to be improved, and independent cost estimates
for Government Bills of Lading (GBLs) must be performed. As a result, the NPC is in the
process of developing written procedures for the preparation of GBLs. The procedures, when
complete, will incorporate all of the provisions of the US. Government Freight Transportation
Handbook and the regulations governing the use of GBLs that are published in Title 41, Code of
Federal Regulations, Sections 102-118.

In accordance with position classification standards for the Freight Rate Series, GS-2 131,
persons working in these positions have the authority to select the most cost-effective means of
transportation. Transportation mode and method selections must be in accordance with
established fieight tariffs and tenders. Recognizing that no established tender or tariffs were
available during Census 2000, freight rate specialists attempted to negotiate fair and reasonable
cost for next-day air fkeight services with companies that had demonstrated positive performance.
While their efforts assured the timely delivery of materials to the field and the success of
Census 2000, they may not have constituted the most cost-effective method.

To assure that all future shipping service cost is fair, reasonable, and the best value to the
government, the NPC is taking/has taken the following actions:

       Meet with Finance Division to discuss and determine the best approach for conducting
       GBL prepayment audits (to be scheduled).

       Require service providers to itemize all charges on the GBL.

       Require the NPC shipping ofice personnel to develop a government estimate for all
       services identified on the GBL.

       Establish reasonable cost thresholds (based on actual tariff and rate schedules) on all
       GBLs to reveal carrier overcharges.

       Acquired bulk air fieight contract with the Yellow Freight Company on September 3,2003
       (Contract No. YFSY010104). This is the contract from the GSA National Capital Region
       Transportation Office. The NPC management met with shipping office personnel on
       September 11,2003, to review contract responsibility, authority for acquiring shipping
       services, and the terms and conditions of the new bulk air freight contract. This contract is -
       used for all bulk air shipments.

       Completed first draft of procedures entitled "Instructions for the Preparation of
       Commercial Bills of Lading" on September 11,2003. The procedures are scheduled to be
       finalized by October 2003.

cc: USIEA
